U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

All American Check Cashing, Inc., et al. v. Consumer Financial
Protection Bureau, S.Ct No. 19-432

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
30, 2019, and placed on the docket on October 2, 2019. The government's response is due on
November 1, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0432
ALL AMERICAN CHECK CASHING, INC., ET AL.
CFPB

OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BOULEVARD
SUITE 307
PALM BEACH GARDENS, FL 33410
BAS @PACIFICLEGAL.ORG
THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-955-8500
TOLSON@GIBSONDUNN.COM

